           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   FAILURE TO COOPERATE DENIALS
   AND INITIAL CLAIMS BACKLOG AT
     THE CALIFORNIA DISABILITY
      DETERMINATION SERVICES

      May 2011    A-09-10-21093




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      May 25, 2011                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Failure to Cooperate Denials and Initial Claims Backlog at the California Disability
           Determination Services (A-09-10-21093)


           OBJECTIVE
           Our objectives were to determine whether the California Disability Determination
           Services (CA-DDS) (1) incorrectly denied initial claims based on failure to cooperate
           (FTC) and (2) understated the size and age of its initial claims backlog.

           BACKGROUND
           Disability determination services (DDS) in each State or other responsible jurisdiction
           perform disability determinations under the Social Security Administration’s (SSA)
           Disability Insurance and Supplemental Security Income programs. Such determinations
           are required to be performed in accordance with Federal law and underlying
           regulations. Each DDS is responsible for determining claimants’ disabilities and
           ensuring adequate evidence is available to support its determinations. 1

           To receive disability benefits, an individual must meet the non-disability requirements for
           benefits 2 and must provide medical evidence of impairment severe enough to preclude
           work. The DDS considers factors that show how impairment affects an individual’s
           ability to work such as age, education, training, work experience, and ability to perform
           the activities of daily living. Before a DDS can make a determination, it will develop a
           complete medical history and make every reasonable effort to obtain medical reports
           from appropriate medical sources. For example, a DDS can request a claimant to
           complete a work history and/or function report to collect information about the

           1
            Social Security Act §§ 221, 1601 et seq.; 42 U.S.C. §§ 421, 1381 et seq.; 20 C.F.R. §§ 404.1601 et seq.
           and 416.1001 et seq.
           2
             For Disability Insurance, the non-disability requirements include such factors as sufficient earnings. For
           Supplemental Security Income, the non-disability requirements include such factors as citizenship, limited
           income, and resources. 20 C.F.R. §§ 404.130 et seq., 404.315, 416.202, and 416.1100 et seq.
Page 2 - The Commissioner


individual’s ability to work, function, and perform activities of daily living. 3 The claimant
is required to cooperate with the DDS in obtaining and identifying evidence about the
impairment from medical and non-medical sources. When an individual fails to
cooperate, the DDS will make a decision based on the available information. 4

In February 2009, because of budget concerns, the State of California instituted a 2-day
per month employee furlough of State employees.5 Beginning in July 2009, California
increased the furloughs to 3 days per month. 6 California ended the furloughs in
November 2010 and implemented a 1 unpaid personal leave day per month over the
following 12 months.7

At a November 19, 2009 hearing before the House Committee on Ways and Means
Subcommittee on Social Security, Congressman Bob Filner testified that CA-DDS may
have been improperly denying the claims of disability applicants who failed to return a
25-page form within 20 days—a practice that allegedly started because of the employee
furloughs. Congressman Filner also testified that CA-DDS might have been concealing
its backlog of initial claims by assigning them to fictitious employees.8 Subsequently,
the Commissioner of Social Security requested that we determine whether CA-DDS
was circumventing the effects of its employee furloughs by implementing a practice of
incorrectly denying applicants based on FTC and whether CA-DDS was understating
the size of its initial claims backlog.

CA-DDS has 11 branch offices and approximately 1,500 employees throughout the
State of California. To perform our review, we obtained data for the approximately
165,000 CA-DDS initial disability claim decisions for the period July 1 through
December 11, 2009. Of these decisions, approximately 6,600 (4 percent) were FTC
denials. Our analysis determined that the Sacramento and Stockton branch offices had
the highest FTC denial rates─11 and 6 percent, respectively. The remaining nine
branch offices’ FTC denial rates were less than 5 percent (see Appendix C). For our
audit, we randomly selected 150 FTC denials for review: 50 each from the Sacramento
and Stockton branch offices and 50 from the remaining 9 branch offices.




3
    SSA, Program Operations Manual System (POMS), DI 23007.005.B.
4
    SSA, POMS, DI 23007.005.F.
5
    Executive Order S-16-08 by the Governor of the State of California, December 19, 2008.
6
    Executive Order S-13-09 by the Governor of the State of California, July 1, 2009.
7
    Executive Order S-15-10 by the Governor of the State of California, October 7, 2010.
8
 Hearing on Clearing the Disability Claims Backlogs: The Social Security Administration’s Progress and
New Challenges Arising From the Recession: Hearing Before H. Committee on Ways and Means,
                                      th
Subcommittee on Social Security, 111 Cong. (2009) (statement of The Honorable Bob Filner).
Page 3 - The Commissioner


RESULTS OF REVIEW
CA-DDS did not always comply with SSA’s policies and procedures for FTC denials.
Based on our review of 150 FTC denials, we found that 37 (24.7 percent) did not
comply with SSA’s policies and procedures (see Appendix C). Specifically, CA-DDS did
not

•      evaluate and follow up on medical evidence submitted for 18 claimants;
           - 1 who provided sufficient evidence of her disability when she filed her
             application
           - 9 who submitted valid medical evidence before the FTC denial
           - 8 who submitted the requested information after the FTC denial

•      request evidence, when required, for 7 claimants; and

•      contact third parties for 12 claimants who required special assistance because of
       mental impairments.

We also found that CA-DDS branch offices’ interpretations of the FTC policies resulted
in an inconsistent level of service for disability applicants. We found no evidence that
CA-DDS understated the size and age of its initial claims backlog.

The inappropriate FTC denials generally occurred because CA-DDS did not have
adequate controls to ensure its employees complied with SSA’s policies and
procedures. Finally, we found no evidence that the inappropriate denials occurred
because of the employee furloughs.

SSA POLICIES AND PROCEDURES FOR FTC DENIALS

A DDS will initially evaluate a claimant’s disability based on the evidence submitted with
the application for benefits. If a DDS cannot make a determination without additional
evidence from the claimant, it will contact the claimant directly, preferably by telephone
or mail. 9 The DDS uses a Work History Report to obtain work experience, a Function
Report, a Disability Report, and a Third Party Function Report to collect information
about a claimant’s ability to function and perform the activities of daily living. 10 A DDS
also uses other forms to collect information about claimants’ impairments, such as the
Pain Report. 11


9
   SSA, POMS, DI 22505.015, (Effective Dates: April 3, 2008 – December 13, 2010). This policy was
subsequently replaced by DI 23007.005 in December 2010, which requires claimant contact by telephone
if a telephone number was provided.
10
     SSA, POMS, DI 11005.016.
11
     Id.
Page 4 - The Commissioner


These forms are from 2 to 10 pages, 12 and claimants are provided 10 calendar days to
complete and return them. 13 According to CA-DDS employees, they usually request
these forms at the beginning of the claims development process, and a claimant may be
required to complete multiple forms. When a claimant fails to respond, DDS employees
must consider whether the claimant is incompetent. If a claimant’s competence is
questionable, DDS employees should consider contacting third parties, an SSA field
office, or treating physicians for the information. 14 If a claimant alleges a mental
impairment, the DDS must follow up with identified third parties.15

A DDS may also obtain a consultative examination (CE) to evaluate the claimant’s
medical condition and capability to work. A CE is required when (1) evidence is not in
the claimant’s medical records; (2) the claimant cannot obtain the evidence; (3) highly
technical or specialized evidence is needed; (4) there is a conflict or insufficiency of
evidence that must be resolved; or (5) there is an indication of a change in the
claimant’s condition. However, before obtaining a CE, the DDS is required to make
every reasonable effort to obtain from the claimant’s medical source(s) all medical
evidence necessary to make a determination. 16

When a claimant fails to provide requested information, the DDS will discontinue
developing the evidence since the claimant has demonstrated a failure to cooperate.
However, before the DDS makes a determination based on the evidence in file, it must
follow up with the claimant or any designated third party if the claimant alleged a mental
impairment or is homeless. In addition, the DDS must determine whether the forms are
essential for a decision and whether the DDS could obtain the information from other
sources. 17

INAPPROPRIATE FTC DENIALS

From our sample of 150 FTC denials, we found that 37 (24.7 percent) were
inappropriately denied. Specifically, CA-DDS did not request, develop, and evaluate
appropriate medical evidence listed by claimants; always contact claimants or their
appointed representatives; and always provide required assistance to claimants with an
alleged mental impairment.




12
     SSA, POMS, OS 15020.375, OS 15020.380, OS 15020.381, OS 15020.382.
13
     SSA, POMS, DI 23007.005.
14
  SSA, POMS, DI 22501.003, (Effective Dates: May 22, 2001–December 13, 2010). This policy was
subsequently replaced by DI 23007.005 in December 2010.
15
     SSA, POMS, DI 23007.005.
16
     SSA, POMS, DI 22510.005.
17
     SSA, POMS, DI 23007.005.
Page 5 - The Commissioner


Evaluation and Development of Medical Evidence

    Sufficient Evidence Provided by a Claimant – A DDS’ primary mission is to provide
individuals accurate and timely disability determinations.18 However, we found that
CA-DDS incorrectly denied a claimant who provided sufficient evidence of her disability
when she filed her application. CA-DDS denied a 57-year-old woman’s claim in
November 2009 because she did not return the Work History Report. However, our
review found that she had no prior work history and therefore the report was
unnecessary. In addition, the claimant provided medical evidence that she may have
been incapable of working because of limitations caused by her medical condition.
When we brought this to CA-DDS’ attention, it reopened her claim and reversed the
FTC denial to an allowance in August 2010. According to CA-DDS, the incorrect FTC
denial occurred because the employee did not accurately evaluate all relevant
evidence.

   Medical Evidence Development – A DDS is required to consider all evidence
obtained when making a disability determination. 19 Upon discovery of potential
impairments, the DDS is required to develop the claim to determine whether the
impairments result in disability and limit the claimant’s ability to work. 20

We found that CA-DDS did not evaluate and follow up on material medical evidence for
nine claimants. This included (1) medical evidence provided by claimants’ treating
physicians, (2) medical evidence supplied by the claimants, (3) Medical Evidence of
Record (MER) requested and received by CA-DDS, and (4) evidence from a previous
claim. We discussed these cases with CA-DDS Program Support Bureau staff
responsible for ensuring that claims comply with SSA’s policies and procedures. The
Program Support Bureau staff agreed that the FTC denials were incorrect because CA-
DDS employees did not review all available medical evidence applicable to the claims.

For example, in July 2009, CA-DDS denied a claimant alleging depression and anxiety
disorder because he failed to return the Work History Report and Function Report.
However, we found that CA-DDS did not evaluate or develop a Medical Source
Statement 21 provided by a valid medical source that indicated the claimant’s capacity to
work was severely limited by his medical condition. The claimant subsequently filed a
reconsideration request after the FTC denial. Upon reconsideration in March 2010,
CA-DDS determined the claimant was entitled to disability benefits.




18
     SSA, POMS, DI 00115.001.C.
19
     SSA, POMS, DI 22505.001.
20
     SSA, POMS, DI 24505.030.F.
21
     SSA, POMS, DI 24515.009.
Page 6 - The Commissioner

    Trailer Material – At times, a DDS will receive medical evidence, evidence of work
activity, or other documents after an FTC denial. This evidence is called trailer material.
When the DDS receives trailer material, it must evaluate the evidence and determine
whether it affects the prior decision, and if necessary, reopen or reverse the denial. 22

We found that CA-DDS did not evaluate trailer material submitted by eight claimants.
These claimants provided the requested information, within an average of 10 days after
the FTC denial. Two of the eight claimants provided the information on or before the
date of the FTC denial decision. Generally, this occurred because CA-DDS did not
have adequate controls to ensure its staff reviewed evidence received after the FTC
denial decision.

For example, in August 2009, CA-DDS denied a 55-year-old claimant alleging
end-stage renal disease because he did not return the Work History and Function
Reports. CA-DDS stopped developing his claim and did not follow up to determine
whether the claimant had a medical condition that made him eligible for disability.
However, the claimant returned all the requested forms 4 days after the FTC denial.
When we brought this to CA-DDS’ attention, it reopened the claim, reversed the FTC
denial, and awarded him benefits in September 2010.

In another example, in October 2009, CA-DDS denied benefits to a claimant because
he did not return the Exertion Questionnaire. However, the claimant had returned the
Questionnaire 4 days before the FTC denial decision. According to CA-DDS staff,
because of a clerical error, it did not review the Questionnaire. CA-DDS reopened the
claim, and a decision was still pending as of March 2011.

Obtaining Evidence

    Contact with Claimants – A DDS is responsible for examining a claim, determining
the evidence needed, and documenting all attempts to obtain evidence. 23 If a claimant
has an appointed representative, the DDS should contact the representative with any
issues concerning the claim. 24 We found that CA-DDS sent a request for information to
an incorrect address for one claimant and did not contact an appointed representative
for another claimant.

In August 2009, CA-DDS incorrectly denied a claimant for FTC because it had not
updated its records with the claimant’s current address. The claimant moved from
Nevada to California in May 2009 and provided CA-DDS his new address. However,
CA-DDS did not update its records and attempted to contact the claimant at his prior
address and telephone number. CA-DDS incorrectly sent the Work History and

22
     SSA, POMS, DI 22520.001.
23
     SSA, POMS, DI 22501.002.B.
24
     SSA, POMS, GN 03910.050.
Page 7 - The Commissioner


Function Reports to the claimant’s prior address, which the Post Office returned as
undeliverable. The claimant subsequently filed a reconsideration request and, in
May 2010, the DDS awarded benefits effective November 2009.

In another example, CA-DDS denied a claimant for FTC in July 2009 because the
claimant failed to return the Work History and Function Reports. The claimant had an
appointed representative; however, CA-DDS did not update its records with this
information. As a result, the CA-DDS employee did not contact the appointed
representative concerning the requests for information and denied the claimant for FTC.

    Medical Evidence – SSA requires that a DDS make every reasonable effort to help
claimants obtain medical reports from medical sources. A DDS should consider all
evidence in the claimant’s file when making a determination. A DDS is responsible for
obtaining MER from claimants’ treating physicians and following up on outstanding MER
requests. A DDS must allow the medical source at least 20 calendar days to reply. 25
However, we found that CA-DDS did not request MER for three claimants and did not
wait the required time for treating sources to respond for two claimants. The evidence
included records for psychiatric evaluations, treatment, therapy, medication, and
medical evaluations. We discussed these cases with Program Support Bureau staff,
and they agreed that the FTC denials were incorrect because CA-DDS did not request
or review the evidence.

Assistance to Claimants with Mental Impairments

A DDS is required to assist claimants who allege a mental impairment. 26 When this
occurs, a DDS should consider contacting a third party, SSA field office, treating
physician, or the claimant. 27 We found that CA-DDS staff did not request assistance
from third parties for 12 claimants, as required. These claimants had alleged mental
impairments including depression, anxiety, and schizophrenia. The claimants had listed
authorized representatives, family members, or friends who would provide assistance
during the application process. However, CA-DDS did not contact these individuals
before denying the claimants for FTC.

For example, in December 2009, CA-DDS denied a 59-year-old claimant who had a
history of depression and anxiety disorder because she did not provide information
concerning her work history. Although the claimant had listed a third party on her
application, CA-DDS did not contact the third party before denying the claimant for FTC.
In addition, the claimant subsequently provided the work history information 2 days after
the FTC denial. When we brought this to CA-DDS’ attention it reopened the claim and
reversed the FTC denial to an allowance in July 2010.
25
     SSA, POMS, DI 22505.001.
26
     SSA, POMS, DI 22501.002.B.
27
   SSA, POMS, DI 22501.003.B.2, (Effective dates: May 22, 2001 – December 13, 2010). SSA issued
new policy in December 2010 requiring DDS staff to contact designated third parties for claimants
alleging mental impairments. DI 23007.005.
Page 8 - The Commissioner


INCONSISTENT FTC PRACTICES BY CA-DDS BRANCH OFFICES

SSA’s Strategic Goal to improve the speed and quality of its disability process includes
an initiative to achieve a consistent policy application. As part of this effort, SSA will
identify and resolve important disability policy and procedural issues across all
decision-making levels. SSA expects this effort will result in clearer and more
consistent policies, procedures, and processes. According to SSA, this effort should
also help to address differences and difficulties in applying SSA disability policies and
procedures.28

During our review, we found that the 11 CA-DDS branch offices had different
interpretations of the FTC policies and procedures. This occurred because CA-DDS
employees believed that SSA’s policies and procedures did not provide clear
instructions for processing FTC cases. Our interviews with CA-DDS management and
staff also found that various interpretations of policy and procedures existed. The
variances concerned (1) the method and extent of required DDS follow up with
claimants for information requests and (2) the scheduling of CEs when claimants do not
return forms.

Method and Extent of Follow-up Contacts with Claimants

During our review, the FTC policy did not mandate the method of contact with
claimants. The DDS staff could request information by sending a notice or making a
telephone call. 29 However, CA-DDS management and staff generally believed that
telephone calls were more effective and reduced the number of FTC denials because
claimants did not always respond to mail requests for information. During our interviews
with CA-DDS employees, 45 (65 percent) of 69 stated that telephone calls were more
effective in obtaining information; therefore, they usually called claimants. During our
review, we found one branch office had established policies requiring a telephone
attempt before denying a claim for FTC. Subsequently, in December 2010, SSA
revised its FTC policy to require both a telephone and mail follow-up contacts when
claimants do not respond to requests for information. 30

Scheduling CEs When Claimants Do Not Return Forms

A DDS is required to obtain a CE to evaluate the claimant’s medical condition and
capability to work when necessary. However, before obtaining a CE, the DDS is
required to make every reasonable effort to obtain from the claimant’s medical source(s)


28
     SSA, Agency Strategic Plan, Fiscal Years 2008-2013, Strategic Goal 2, page 16.
29
   SSA, POMS, DI 22505.015, (Effective Dates: April 3, 2008 – December 13, 2010). This policy was
subsequently replaced by DI 23007.005 in December 2010, which required claimant contact by telephone
if a telephone number was provided.
30
     SSA, POMS, DI 23007.005.
Page 9 - The Commissioner


all medical evidence necessary to make a determination. 31 SSA policy also states that
if a claimant fails to cooperate by not returning forms, the DDS can discontinue
development and prepare a determination based on the evidence in the claimant’s file. 32
Finally, in September 2009, CA-DDS informed its staff that CEs are not required when a
claimant fails to cooperate.

Our interviews with CA-DDS employees found that 46 (67 percent) of 69 disagreed with
this policy and would schedule a CE, when deemed necessary, regardless of whether a
claimant returned forms. The employees stated that CEs should be scheduled based
on whether the information is needed to make a disability determination and not on
whether a claimant had returned a form. CA-DDS employees also noted that they could
obtain much of the requested information from health care providers, neighbors, or
employers. In addition, one branch office adopted a practice of requiring its employees
to schedule a CE when claimants failed to return a form.

CONCLUSION AND RECOMMENDATIONS
CA-DDS did not comply with SSA’s policies and procedures for 37 (24.7 percent) of the
150 FTC denials. Specifically, CA-DDS did not properly request, evaluate, or develop
applicable evidence for claimants. In addition, CA-DDS did not request assistance from
third parties for claimants alleging mental impairments. As of March 2011, CA-DDS
subsequently allowed benefits for 9 of the 37 claimants, 5 claimants were denied
benefits after subsequent reviews, 12 of the FTC denials are pending an additional
review by CA-DDS and 11 claimants did not request a reconsideration or an appeal of
their FTC denials. Our review also found no evidence that (1) the inappropriate denials
occurred because of the employee furloughs or (2) CA-DDS understated the size and
age of its initial claims backlog. Finally, we found that CA-DDS branch offices had
inconsistent interpretations of the FTC policy.

In December 2010, SSA revised its FTC policy to emphasize the need to use both the
telephone and mail to contact claimants when they do not respond to requests for
information. However, additional controls and oversight are needed to ensure the
proper adjudication of disability claims.

We recommend that SSA:

1. Ensure CA-DDS takes corrective action, as appropriate, for the 37 claimants
   identified by our audit.

2. Based on the results of the corrective action for the 37 claimants, determine whether
   it should review the population of 6,654 FTC denials.



31
     SSA, POMS, DI 22510.005.
32
     SSA, POMS, DI 23007.005.
Page 10 - The Commissioner


3. Determine whether additional revisions to FTC policies and procedures are
   necessary.

4. Require that CA-DDS provide training for its employees on the FTC policies and
   procedures.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
CA-DDS   California Disability Determination Services
CE       Consultative Examination
C.F.R.   Code of Federal Regulation
DDS      Disability Determination Services
FTC      Failure to Cooperate
MER      Medical Evidence of Record
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                     Appendix B

Scope and Methodology
We obtained a data extract from the Social Security Administration’s (SSA) Disability
Data Base (SSA-831) of 164,737 initial disability claims processed by the California
Disability Determination Services (CA-DDS) for the period July 1 through
December 11, 2009. From this, we identified 6,654 individuals denied benefits based
on failure to cooperate (FTC). We selected a random sample of 150 FTC denials for
detailed review.

We interviewed 69 randomly selected employees from the 11 CA-DDS branch offices.
We also interviewed 30 managers and 11 training coordinators from the 11 branch
offices to obtain an understanding of the branch offices’ interpretation and
implementation of the FTC policies and procedures.

Finally, we interviewed employees from CA-DDS and SSA’s San Francisco Regional
Office concerning the process of reporting initial claims pending for assignment and
decision. Based on initial claims pending data and management reports obtained from
SSA and CA-DDS, we verified that the size and age of the initial claims pending was
properly reported.

To accomplish our objectives, we:

•   Reviewed applicable laws, regulations, and sections of SSA’s Program Operations
    Manual System.

•   Interviewed SSA representatives from the San Francisco Regional Center for
    Disability.

•   Reviewed 150 randomly selected FTC denials with staff from the Program Support
    Bureau responsible for ensuring that cases comply with SSA’s policies and
    procedures.

•   Reviewed information from SSA’s Electronic Viewing System, Master Beneficiary
    Record, Modernized Integrated Disability Adjudicative System, Supplemental
    Security Income Record, Detailed Earnings Query, and Numident for each sample
    item.

•   Interviewed randomly selected employees including Team Managers, Medical
    Consultants, and Disability Examiner Analysts from each of the 11 CA-DDS branch
    offices.




                                          B-1
We determined the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data,
which allowed us to assess the reliability of the data and achieve our audit objectives.

We performed our audit in Richmond, California, between April 2010 and March 2011.
We conducted site visits to branch offices in Fresno, Oakland, Sacramento, and
Stockton, California. The entities reviewed were the Office of Retirement and Disability
Policy and CA-DDS.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                           B-2
                                                                     Appendix C

Sampling Methodology and Results
We obtained a data extract from the Social Security Administration’s (SSA) Disability
Data Base (SSA-831) of 164,737 initial disability claims processed by the California
Disability Determination Services (CA-DDS) for the period July through
December 11, 2009. From this file, we identified 6,654 individuals denied benefits
based on failure to cooperate (FTC). We analyzed the frequency of FTC denials for the
11 branch offices of the CA-DDS. As shown in Table 1 below, the Sacramento and
Stockton offices had the highest FTC denial rates.

                       Table 1 – Claims and FTC Denials by Branch

                                                 Number of   Number of
                                                   Claim       FTC         Percent
    Branch Name                 Location
                                                 Decisions    Denials      Denied
 Oakland                 Oakland, CA                 9,538       448         4.7
 Covina                  Covina, CA                17,695        368          2.1
 San Diego               San Diego, CA             15,367        365          2.4
 Sacramento              Sacramento, CA            16,538       1,852        11.2
 Central Valley          Fresno, CA                16,075        676          4.2
 Roseville               Roseville, CA             15,417        384          2.5
 Los Angeles – West      Los Angeles, CA           14,783        447          3.0
 Stockton                Stockton, CA              11,060        699          6.3
 La Jolla                La Jolla, CA              17,739        649          3.7
 Sierra                  Fresno, CA                15,124        399          2.6
 Los Angeles – North     Los Angeles, CA           15,401        367          2.4
 TOTAL                                            164,737       6,654         4.0

From the population of 6,654 FTC denials, we randomly selected 50 each from the
Sacramento and Stockton offices and 50 from the remaining 9 offices for a total of 150.
For each sampled claimant, we determined whether the FTC denial was proper. Of the
150 claimants in our sample, we found that CA-DDS did not comply with SSA’s policies
and procedures that resulted in 37 (24.7 percent) inappropriate FTC denials. Table 2
provides the details of our population, sample size, and results.




                                           C-1
                   Table 2 – Population, Sample Size, and Results

                                                        Remaining
     Description          Sacramento      Stockton                  Total
                                                         Offices
Population Size               1,852           699          4,103    6,654
Sample Size                      50            50              50     150
Proper Denial                    34            40              39     113
Inappropriate Denial             16            10              11      37




                                        C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      May 10, 2011                                                              Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Failure to Cooperate Denials and Initial
           Claims Backlog at the California Disability Determination Services" (A-09-10-21093)--
           INFORMATION

           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Chris Molander at extension 57401.

           Attachment




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FAILURE TO COOPERATE DENIALS AND INITIAL CLAIMS BACKLOG
AT THE CALIFORNIA DISABILITY DETERMINATION SERVICES" (A-09-10-21093)

We are pleased you found no evidence of inappropriate denials related to employee furloughs at
the California Disability Determination Services (CA-DDS), or that the CA-DDS understated the
size and age of its initial claims backlog.

RESPONSES TO RECOMMENDATIONS

Recommendation 1

Ensure the CA-DDS takes corrective action, as appropriate, for the 37 claimants identified by our
audit.

Response

We agree. As noted on page 9 of your report, the CA-DDS already reviewed 14 of the 37 cases,
allowing 9 and upholding denials for 5. It will review the remaining 23 cases and take corrective
actions if appropriate.

Recommendation 2

Based on the results of the corrective action for the 37 claimants, determine whether it should
review the population of 6,654 FTC denials.

Response

We agree. We will decide this after the CA-DDS completes its review of the 37 cases.

Recommendation 3

Determine whether additional revisions to FTC policies and procedures are necessary.

Response

We agree and have already taken action. As you note on page nine, in December 2010, we
revised procedures in the Program Operations Manual System (POMS) to promote consistent
application of failure to cooperate (FTC) policies and to improve the DDSs’ ability to gain
claimant cooperation earlier. For all cases, we now mandate both telephone and written follow
up when a claimant fails to take a requested action, or to confirm if a claimant will attend a
consultative examination (CE).

We also sent a letter to all DDS administrators about the revised procedures, and we provided
national training using Video on Demand, that included an interactive segment highlighting FTC




                                               D-2
policy changes. We expect our efforts will result in the DDSs applying correct FTC policies.
This will provide greater protection for claimants.

We consider this recommendation closed for tracking purposes.

Recommendation 4

Require that the CA-DDS provide training for its employees on the FTC policies and procedures.

Response

We agree. The CA-DDS has already taken the following steps:

   •   Conducted refresher training for all DDS branch offices,
   •   Developed an FTC Checklist for disability examiners and released accompanying written
       policy guidance in March 2010,
   •   Included FTC curriculum in training classes for newly-hired employees,
   •   Included FTC assessments as part of focused quality reviews, and
   •   Conducted training on the revised POMS.

We consider this recommendation closed for tracking purposes.




[SSA also provided technical comments, which have been addressed, where
appropriate, in the report.]




                                              D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Manfei Lau, Auditor-in-Charge

   Regina Finley, Senior Auditor

   Andrew Hanks, Program Analyst

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-10-21093.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
